OFFICE OF INSPECTOR GENERAL 


AUDIT OF THE OVERSEAS
PRIVATE INVESTMENT
CORPORATION'S FISCAL YEAR
2014 COMPLIANCE WITH THE
FEDERAL INFORMATION
SECURITY MANAGEMENT ACT
OF 2002
AUDIT REPORT NO. A-OPC-14-007-P
SEPTEMBER 11, 2014

WASHINGTON, D.C.
This is our summary report on the "Audit of the Overseas Private Investment Corporation's
Fiscal Year 2014 Compliance With the Federal Information Security Management Act of 2002"
(Audit Report No. A-OPC-14-007-P). The Federal Information Security Management Act of 2002
(FISMA) requires agencies to develop, document, and implement an agency-wide information
security program to protect their information and information systems, including those provided
or managed by another agency, contractor, or other source. The act also requires agencies to
have an annual assessment of their information systems.

The USAID Office of Inspector General (OIG) contracted with CliftonlarsonAllen LLP (Clifton) to
conduct the audit in accordance with U.S. Government auditing standards. The objective was to
determine whether the Overseas Private Investment Corporation (OPIC) implemented selected
security controls for selected information systems in support of FISMA.

To answer the audit objective, Clifton assessed whether OPIC implemented selected
management, technical, and operational controls outlined in National Institute of Standards and
Technology Special Publication 800-53, Security and Privacy Controls for Federal Information
Systems and Organizations, Revision 4. Clifton performed audit fieldwork at OPIC's
headquarters in Washington, D.C., from June 4 through July 17, 2014.

The audit concluded that OPIC implemented 74 of 78 selected security controls in support of
FISMA. For example, OPIC did the following:

• 	 Categorized its information systems and the information processed, stored, or transmitted in
    accordance with federal guidelines, and designated senior-level officials within the
    organization to review and approve the security categorizations.

• 	 Implemented an effective incident handling and response program.

• 	 Maintained an effective specialized training program for employees who need role-based
    training.

• 	 Established appropriate segregation of duties within OPICNet, the corporation's general
    support system.

Clifton concluded that, although OPIC generally had policies for its information security program,
its implementation of those policies was not always effective enough to preserve the
confidentiality, integrity, and availability of the corporation's information and information
systems. Based on Clifton's report, OIG made six recommendations to help OPIC strengthen its
information security program and one to address a weakness in the recommendation closure
process. Management decisions were made on all seven recommendations.
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov 

